OFFICE OF INSPECTOR GENERAL


Audit of the United States African
Development Foundation's
Financial Statements for Fiscal
Years 2010 and 2009
AUDIT REPORT NO. 0-ADF-11-002-C
November 12, 2010




WASHINGTON, DC
       of Inspector General
Office ofInspector


November 12, 2010

MEMORANDUM

TO:                                               0 . Pierson
                     ADF President and CEO, Lloyd O.

FROM:                AIG/A, Joseph Farinella   /s/

SUBJECT:             Audit of the United States African Development Foundation's Financial
                     Statements for Fiscal Years 2010 and 2009 (Audit Report No. 0-ADF-11-002-C)

With this memorandum, the Office of Inspector General (OIG) is transmitting the audit report
                                                          P.C. (Independent Auditor) on the
prepared by the certified public accounting firm of GKA, P.C.
Financial Statements of the United States African Development Foundation (ADF) as of
September 30, 2010 and 2009.
                          2009. The OIG contracted with this Independent Auditor to audit the
financial statements.

The Independent Auditor expressed an unqualified opinion   opInion on ADF's FY 2010 and 2009
financial statements and notes.
                           notes. The report states that the Financial Statements presented fairly,
in all material respects, ADF's financial position, the net cost of operations, the changes in net
position, and budgetary resources for the years ended September 30,        30, 2010 and 2009, in
conformity with accounting principles generally accepted in the United States of America.

The report contained no material weaknesses or significant deficiencies in ADF's internal control
over financial reporting and no instances of material noncompliance with selected provisions of
applicable laws and regulations involving ADF's financial management system.
                                                                       system.

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted Government Auditing Standards issued by
                                         States; and the Office of Management and Budget
the Comptroller General of the United States;
Bulletin (OMB) 07-04, Audit Requirements for the Federal Financial Statements.
                                                                   Statements.

In connection with our contract, we reviewed the Independent Auditor's related audit
documentation. Our review which is different from an audit in accordance with the auditing
documentation.
standards discussed above was not intended to enable us to express,
                                                               express , and we do not express
an opinion on ADF's financial statements.
                                  statements. Also
                                                Also,, we did not express conclusions on the
effectiveness of ADF's internal control or ADF's compliance with other laws and regulations.
                                                                                regulations.




u.s.
U.S. Agency for International Development
1300 Pennsylvania Avenue, W.J
Washington, DC 20523
Washington,
WIMV.usaid.gov/oig
www.usaid.gov/oig
                                                -2-

The Independent Auditor was responsible for the attached auditor's reports dated October 29,
2010 and the conclusions expressed therein . Our review disclosed no instances where the
Independent Auditor did not comply, in all material respects, with the auditing standards
discussed above.

The Office of Inspector General appreciates the cooperation and courtesies extended to our
staff and to the staff of GKA, P.C., during the audit. If you have questions concerning this report,
please contact Rohit Chowbay at (202) 712-1317.
                 gka, P.C.                                       Certified Public Accountants | Management Consultants




       United States African Development Foundation
        PERFORMANCE AND ACCOUNTABILITY REPORT

                                          Fiscal Year 2010




                                                                   Member of the American Institute of Certified Public Accountants


1015 18th Street, NW · Suite 200 · Washington, DC 20036 · Phone: 202-857-1777 · Fax: 202-857-1778 · WWW.gkacpa.com
THIS PAGE INTENTIONALLY LEFT BLANK
                                                   TABLE OF CONTENTS


Section I: Overview

   Message from the President .................................................................................................1
   Management’s Discussion and Analysis .............................................................................2
   Message from the CFO ......................................................................................................18

Section II: Independent Auditor’s Reports

   Independent Auditor’s Report on Financial Statements ....................................................19
   Independent Auditor’s Report on Internal Control over Financial Reporting...................21
   Independent Auditor’s Report on Compliance with Laws and Regulations......................23

Section III: Financial Statements and Notes

   Financial Statements:
      Balance Sheets .............................................................................................................25
      Statements of Net Cost.................................................................................................26
      Statements of Changes in Net Position........................................................................27
      Statements of Budgetary Resources.............................................................................28
      Notes to Financial Statements......................................................................................29
THIS PAGE INTENTIONALLY LEFT BLANK
SECTION I

OVERVIEW
THIS PAGE INTENTIONALLY LEFT BLANK
                         UNITED STATES AFRICAN DEVELOPMENT FOUNDATION




October 29, 2010
                            MESSAGE FROM THE PRESIDENT

I am pleased to submit the FY 2010 Performance and Accountability Report for the United
States African Development Foundation (USADF). USADF is committed to achieving the
highest levels of effective and efficient operations, full transparency and accountability in
financial reporting, and full compliance with applicable laws and regulations.
USADF has a unique development assistance mission in the Federal government. The
Foundation works directly with marginalized and under-served poor populations across Africa,
with a focus on long-term economic development. Local economic development is the key to
poverty alleviation; therefore a majority of USADF funding goes toward community-based
groups. A major component of USADF’s approach is directed toward helping to develop and
grow small and medium-sized enterprises in Africa that produce both economic gains and quality
of life improvements. These gains are measured in terms of more jobs, improved incomes, better
work conditions, and greater access to educational and health services.
USADF’s operating model is one of low overhead to maximize the amount of appropriated
dollars that provide direct economic development assistance to the most underprivileged
populations in Africa. In FY 2010, the Foundation continued to focus attention on lowering
costs, speeding up delivery of services, and improving our strategic partnership
initiative. USADF has pledged to be a Federal agency model of openness and transparency and
has taken significant actions to make this happen, including launching a new public information
directory on our web site.
Our vision is to help end the poverty of thousands of marginalized groups across Africa. Our
success is measured in lives improved, new economic opportunities created, and goodwill
established. Our mission is as applicable today, if not more so, than when USADF was founded
in 1980. We look forward to continued cooperation with Congress, U.S. Government agencies,
and friends and experts throughout the African development community.

Signed:
/s/
Lloyd O. Pierson
President and CEO




                                              1
                        MANAGEMENT'S DISCUSSION AND ANALYSIS

United States African Development Foundation Mission and Organizational Structure


Purpose:       Fostering hope, growth, and goodwill in Africa.
Vision:        To end the poverty of a million Africans by investing in their ideas.
Mission:       To support underserved communities in Africa with resources that help create better
               economic opportunities for all.

The United States African Development Foundation (USADF or the Foundation), created in
1980, is an independent Federal agency established to support African-designed and African-
driven solutions that address grassroots economic and social problems. The Foundation is a
public corporation with a seven member Board of Directors who are nominated by the United
States President and confirmed by the U.S. Senate. They serve for a fixed term. The Board of
Directors selects and names the President and CEO of USADF.

The United States African Development Foundation provides grants of up to $250,000 to
indigenous African organizations that benefit under served and marginalized 1 groups. The
Foundation has a unique mission among U.S. foreign assistance programs, by-passing layers of
inefficiencies and working directly with the neediest communities in Africa. The
Foundation uses a participatory approach to actively engage marginalized local community
groups1 or enterprises in the design and implementation of development projects. This approach
ensures these programs are distinctively African initiated and led, resulting in outcomes that best
address the real needs of the community. Project success and long term impact is further
enhanced through USADF efforts to establish a network of local support and technical service
providers across Africa. Partner organizations are local non-governmental organizations that
provide project design, implementation and management support to USADF grant recipients.
Grant success is measured in terms of jobs created and sustained, increased income levels, and
improved social conditions.

Over the past 30 years, The United States African Development Foundation has established a
foreign assistance model that works. During this period, USADF has worked in more than 26
countries and has invested more than $230 million in African initiated and led development
projects. USADF projects are designed to improve economic and social conditions for some of
the poorest, most neglected communities in the world. Congressional appropriations,
administered by USADF, are tangible expressions of good will from people of the United States
to the people of Africa. Support for USADF programs provide an opportunity for economic
growth and social development in places where little other hope and assistance exist.




1Marginalized groups are people who have been disenfranchised from the political, economic and social fabric of the
broader society and who have significant needs that currently are not being addressed.


                                                          2
                                                                Country Project Table
As of September 30, 2010 USADF has almost 440 active                             Active    Active Value
                                                                 Country
project grants and small grants in 23 countries, representing                   Projects      (USD)
just under $60 million invested in enterprises, farmer           Benin            20           2,540,058
associations, cooperatives, and community groups that            Botswana         25           2,975,684
                                                                 Burkina Faso     33           2,089,886
improve food production, increase income levels, and
                                                                 Burundi          16           2,031,617
improve social benefits in poor communities. Table on the        Cape Verde       24           3,856,784
right shows the number and value of active grants by             Ghana            16           3,054,415
country. Active projects are all USADF funded grants that        Guinea            8           1,291,354
have not expired.                                                Kenya            8               49,242
                                                                 Liberia          30           2,899,384
                                                                 Malawi           16           2,785,529
The Staffing Table below shows the personnel required to
                                                                 Mali             17           3,404,132
support USADF operations across a three year period.             Mauritania       24           3,015,449
USADF has plans to further simplify organizational               Namibia           6             300,808
structures in 2011 to improve operational efficiencies.          Niger            10           2,112,139
                                                                 Nigeria          44           5,695,987
Professional Staffing   End of FY   End of FY   Estimated        Rwanda           16           2,778,610
Levels                    2009        2010       FY 2011         Senegal          17           1,922,823
Direct Federal Hires      25          25           32            South Africa     8              301,863
PSC - Washington          13           9            8            Swaziland        14           1,474,244
PSC - Field               23          23           20            Tanzania         22           4,044,276
         Total            61          57           60            Uganda           25           4,768,787
Staff Table                                                      Zambia           32           4,699,546
                                                                 Zimbabwe         32           1,838,599
                                                                 Total            446         59,931,216


USADF Strategic Priorities

The following seven core principles serve as guidelines for all USADF management planning,
budgeting, and evaluation activities. These priorities help ensure that USADF stays true to its
authorizing legislation and mandate.

1. High effectiveness, low overhead: The efficient use of taxpayer funds is paramount in every
   decision made. While accomplishing tangible results is important, it is essential that USADF
   is accountable to use public monies in the most cost effective manner possible. Maintaining
   this priority moves USADF toward achieving the lowest overhead rate in the Federal
   government.

2. Focus on marginalized communities: USADF is the only United States Government agency
   with a specific mission to provide direct development assistance to the most marginalized,
   under-privileged populations in Africa. These populations can be identified by geography,
   ethnicity, gender, age, or disability, and are often disenfranchised from the political,
   economic and social fabric of the broader society. Typically, USADF provides development
   grants to communities and groups living in the most difficult, challenging areas of sub-
   Saharan Africa and lacking access to traditional domestic or foreign development assistance.

3. Investing in Africans and their ideas: USADF takes participatory development principles


                                                 3
   seriously. The Foundation trusts Africans to understand the challenges they face and to
   know the best approaches to resolving them. USADF also ensures that grantees have access
   to assistance from African experts in the design and implementation of projects. This
   approach ensures that outcomes will best address real community needs. USADF’s
   development model empowers Africans in the decision-making and implementation process.

4. Addressing social development needs and ensuring lasting economic results: The majority
   of the USADF program portfolio is devoted to income generating projects that produce jobs,
   better income levels, and tangible social benefits. Social benefits include skills training,
   nutritional and hygiene training, and basic vocational education. In cases where the right
   opportunities exist, USADF helps marginalized populations develop their capacity to join the
   global economy.

5. Encouraging and expanding African management: All USADF programs in Africa are
   managed by Africans. There are no expatriate offices and there is minimal use of outside
   consultants. When consultants are required most often African experts are selected. This
   approach helps make USADF fundamentally different from other development organizations.
   USADF values and has policies that ensure that Africans take leadership roles in developing,
   implementing, and managing foreign assistance.

6. Maintaining the highest level of openness and transparency in the U.S. Government: As an
   organization primarily dependent on U.S. taxpayer funds, management believes that an open
   and transparent organization is the best approach. The USADF website and other
   communication vehicles are continually updated to make it simple for people to know more
   about Africa, what USADF is doing, and exactly how program funds are being used.

7. Developing an equal opportunity, results driven staff team: that provides equal opportunities,
   and rewards hard work, dedication to the mission.

Supporting Administration Priorities in Marginalized Area

With more than one billion people in the world suffering from chronic hunger, the international
development community has made improving ‘food security’ a priority item. The global
community often defines the term food security as people having a reliable source of food and
sufficient resources to purchase food. From its inception USADF has focused the majority of its
grants on improving agricultural production and improving the income levels of marginalized
groups across Africa. USADF’s participatory development approach ensures that the most
effective food security solutions come from those closest to the problem.

The majority of USADF grants directly support improved agricultural productivity by providing
access to better inputs such as seed, feed, fertilizer, machinery, and irrigation systems. Most all
grants also provide access to improved farm knowledge, training in financial management, and
natural resource management.

In addition to improving the means of production, USADF grants also focus on helping
marginalized groups expand their market access. Higher incomes are achieved when groups gain
the abilities to take greater advantage of local, regional, and international markets. To achieve


                                                4
this USADF grants support improved means of transportation, better product storage, better
product distribution and marketing, and improved access to market information.

The table shows where USADF grant funding economic development grants for marginalized
communities corresponds to other Administration foreign assistance initiatives:

                                                       Feed            Global        USADF
                                   Country             the             Health        Portfolio
                                                       Future          Initiative    Funding
                                   Benin                                                2,540,058
                                   Botswana                                             2,975,684
                                   Burkina Faso                                         2,089,886
                                   Burundi                                              2,031,617
                                   Cape Verde                                           3,856,784
                                   Ethiopia*                 x              x
                                   Ghana                     x                          3,054,415
                                   Guinea                                               1,291,354
                                   Kenya                     x                             49,242
                                   Lesotho*                                              See Note
                                   Liberia                   x                          2,899,384
                                   Madagascar*
                                   Malawi                    x              x           2,785,529
                                   Mali                      x              x           3,404,132
                                   Mauritania                                           3,015,449
                                   Mozambique*               x
                                   Namibia                                                300,808
                                   Niger                                                2,112,139
                                   Nigeria                                              5,695,987
                                   Rwanda                    x              x           2,778,610
                                   Senegal                   x                          1,922,823
                                   São Tomé *
                                   South Africa                                          301,863
                                   Swaziland                                           1,474,244
                                   Tanzania                  x                         4,044,276
                                   Uganda                    x                         4,768,787
                                   Zambia                    x                         4,699,546
                                   Zimbabwe                                            1,838,599
                                   Total                                              59,931,216
*Denotes a non-USADF Country
Note – USADF will begin programming in Kenya immediately after the MOU with Government of Kenya is signed.

In FY 2010, USADF set aside $4.8 million for special food security programs in extremely
marginalized and under served areas such as Lake Turcana area of Kenya; the Central African
Republic; and Zimbabwe. The ability of USADF to move rapidly, with due diligence, assured
results and impact, is a major comparative advantage for the Foundation and for the United
States. In FY 2011, approximately $1.4 million of foreign assistance is reserved for special food
security needs in Somalia and the Central African Republic.




                                                                  5
Performance Summary and Discussion

The summary charts below reflect several aspects of USADF improved performance in 2010.
While total value of USADF grants provided in 2010 decreased from the 2009 peak, the growth
trend over a four year period continues to be a significantly positive with 11% average annual
growth rate from FY 2007 to FY 2010. This growth was achieved while maintaining a constant
level in administration costs over the same period due to ongoing productivity gains achieved by
improved USADF operations. These improvements included faster disbursement processing
cycle times and a better distribution of workload across the calendar year.

Continued Growth Trends in New Program Grants Obligated

    $ Million FY           2007                     2008                       2009   2010
     Project Grants        13.7                     12.5                       20.7     17
    Partner Grants          1.4                      5.9                        4.7    4.9
         Total             15.1                     18.4                       25.4   21.9

                             25


                             20


                             15


                             10


                              5


                              0
                                   2007      2008          2009       2010

                                     Total Grant Funding ($Million)


Improved Grant Disbursement Processing Times

     (days) FY             2007                     2008                       2009   2010
      st                   160                      119                         76     67
     1 Disb (45)
     nd                    214                      180                        156    140
    2 Disb (135)
                             160



                             120



                             80



                             40



                              0
                                   2007       2008          2009        2010


                                                    6
                                       1st Disbursement to Grantee after Obligation (Days)

Improved Workload Distribution

In FY 2008, 2009 and 2010 USADF management established four funding targets for new grant
obligations to better distribute the workload across the year. The objective is to create better utilization of
staff resources across a twelve month period and minimizes quality defect due to work overloads. The
chart below shows a steady improvement over the past four years in distributing the workload across a 12
month period.
                                                                               C4
                                 20




                                  15

                                                                C3


                                  10
                                                                        FY10
                                                                                              FY08
                                                        C2
                                                                                    FY09
                                   5

                                                                                               FY07
                                                               C1

                                  0
                                  9/30              12/ 30           3/ 31          6/30         9/29


                                 Cumulative Grant Obligations ($M) over 12 Month Period


Improved Productivity

The table below shows the improvement in program funding productivity over a four year period. During
this period program costs remained fairly constant while the amount of program dollars delivered
increased. This is a productivity gain of 22 percent.

 $ Million FY                  2007                                 2008                             2009   2010
 Program Costs                 10.5                                 10.6                             11.3   10.3
 Program Funding               19.2                                 20.5                             27.1   22.9
 Prgm / Cost                    1.8                                  1.9                              2.4    2.2

                                   2.5


                                        2


                                       1.5


                                        1


                                   0.5


                                        0
                                                2007         2008            2009      2010


                                             Program $ Delivered per $ of Program Cost




                                                                    7
Organizational Improvements

The 2009 All Employee Survey revealed a remarkable improvement in USADF employee attitudes about
the management, operations, and mission of USADF. The chart below highlights five different categories
of the improved employee attitudes compared to earlier surveys and with the overall Federal employee
population. USADF also scored higher than private sector responses in the areas of job satisfaction and
personal work experiences.

     80%


                                                            74%                                                                          74%
                                                                                                                              67%
                             68%
                                                                                                             65%   63%
     60%                                          59%                                               60%
                    57%                                                             60%
                                                                                                                         59%       61%
                                                                          53%

                                                50%
                 47% 47%                              46%
     40%                                                                43%                            44%
           41%                                                    42%                            41%
                                          39%                                 38%
                                                                                                                    ADF 06

                                                                                          31%                       ADF 07 - all
                                                                                                                    ADF 08
     20%                                                                                                            ADF 09 - all
                                                                                                                    Fed 08 Benchmark
                                                                                                                    (09 HQ)
                                                                                                                    (09 FLD)

      0%
                 Retention                 Leadership Index       Performance Index             Talent Index        Satisfaction Index




                                   % Positive Responses of Employees to the 2009 Federal Human Capital Survey


Program Results

The majority of USADF grants focus on economic development activities in agricultural production and
other food security related areas. The results of these projects help rural farmers grow more food to feed
their families and sell more of their products in commercial markets. Increased revenues generate greater
income that enables people to purchase other goods and services such as food, education, healthcare, and
housing. These basic outcomes significantly improve the quality of life for individuals and communities.
The following statement, based on USADF’s most recent annual assessment of program performance
indicators, provides an overview of the positive impact USADF grants are having in marginalized
communities across Africa.
“The current portfolio of 380 project grants and 70 small grants effects an estimated 810,000 people in
marginalized communities by providing people with the opportunity to engage in the development
process and gain social and economic benefits from the more than $290 million dollars of new
economic activities generated over extended grant period.”


Analysis of Financial Statements

USADF is pleased to report that in FY 2010 the Foundation continued to receive an unqualified opinion on all
financial statements from its independent auditors, GKA, P.C. Since FY 2001, USADF has received an
unqualified opinion on the Balance Sheet, the Statement of Net Costs, the Statement of Net Position, and
the Statement of Budgetary Resources.



                                                                        8
Assets

USADF’s Fund Balance with Treasury decreased, from $35.8 million at the end of FY 2009 to $34.2
million at the end of FY 2010. The difference of $1.6 million is due to continued efforts to improve the
speed of grant disbursement processing.

Cash and Other Monetary Assets consist of foreign currency donations made by African governments and
private-sector entities with which USADF has established strategic partnerships. The funds are held in
bank accounts in each country where a partnership is in effect. These assets did not increase significantly,
from $9.0 million at the end of FY 2009 to $9.26 million at the end of FY 2010.

Liabilities and Net Position

Liabilities did not change significantly from FY 2009 to FY 2010. USADF’s Net Position (the sum of the
Unexpended Appropriations and Cumulative Results of Operations) at the end of 2010 as shown on the
Balance Sheet and the Statement of Changes in Net Position was $45.9 million, a $2.0 million decrease
from the previous fiscal year. This decrease is explained in the prior section regarding the Fund Balance
with Treasury. Unexpended Appropriations of $35.7 million represents funds appropriated by the
Congress for use over multiple years that were not expended by the end of FY 2010. Cumulative Results
of Operations of $9.7 million consists primarily of funds donated by strategic partners that were not
expended by the end of FY 2010.

Net Cost of Operations

The Net Cost of Operations is defined as the gross (i.e., total) cost incurred by the Agency, less any
exchange (i.e., earned) revenue. Program costs assigned to program activities, such as grants and
cooperative agreements, increased from $19.1 million in FY 2009 to $24.6 million in FY 2010, due
primarily to an increase in grant activities. Costs not assigned to programs, such as office expenses, staff
salaries, and other administrative costs, decreased from $10.7 million in FY 2009 to $9.6 million in FY
2010 as a result of the priority set by USADF management to move toward achieving the lowest
overhead rate in the Federal government.

Close to one-third of USADF’s non-program expenses are related to payroll. The next most significant
category of expense, also at approximately one-fifth, relates to the on-the-ground presence USADF
maintains in African countries with the field coordinator offices. The remaining one-third relates to rent,
travel, supplies, publications, training, contractual services, and information technology.

Budgetary Resources

USADF’s budgetary resources consist of its annual appropriations from Congress, which are available for
two years, and donations from strategic partners. USADF’s FY 2009 appropriations were $32.5 million;
its FY 2010 appropriations are $30 million. USADF received $4.7 million in donations from strategic
partners, representing an increase of $900 thousand from the $3.8 million received in FY 2009.

Unobligated Balances increased from $10.9 million at the end of FY 2009 to $11.5 million at the end of
FY 2010. Obligations Incurred line decreased from $ 39.8 million in FY 2009 to $35.4 million in FY
2010. The decrease of $4.4 million is due to reduction of cost associated with administration and grant
programming.




                                                     9
USADF Internal Controls, and Legal Compliance

Management Assurance Statements

General FMFIA Assurance Statement

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the statutory
basis for management’s responsibility for and assessment of accounting and administrative internal
controls. Such controls include program, operational, and administrative areas, as well as accounting and
financial management. The Integrity Act requires federal agencies to establish controls that reasonably
ensure obligations and costs are in compliance with applicable law; funds, property, and other assets are
safeguarded against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are
properly recorded and accounted for to maintain accountability over the assets.

It is my informed judgment, as the head of the United States African Development Foundation that I
provide a qualified statement of assurance with one information security material weakness. This
weakness is a result of a significant deficiency reported in FY 2010 FISMA Compliance Report (to be
issued by November 15, 2010). Except for the material weakness, the internal controls over program
operations and financial management systems meet the objectives of FMFIA.
Signed:
/s/
Lloyd O. Pierson, President
-----------------------------------------------------------------------------------------------------------------------------
Internal Control over Financial Reporting Assurance Statement

The United States African Development Foundation’s management is responsible for establishing and
maintaining effective internal control over financial reporting, which includes safeguarding of assets and
compliance with applicable laws and regulations. USADF assesses the effectiveness of USADF' internal
control over financial reporting and is working toward full compliance with OMB Circular A-123,
Management’s Responsibility for Internal Control. Based on the results of our assessment, the USADF
can provide reasonable assurance that internal control over financial reporting as of September 30, 2010 is
operating effectively and that no material weaknesses have been found in the design or operation of the
internal controls over financial reporting.

Signed:
/s/
Lloyd O. Pierson, President
-----------------------------------------------------------------------------------------------------------------------------
Annual Assurance Statement on Financial Management System

The United States African Development Foundation has been using Oracle Federal Financial System
hosted by National Business Center (NBC) under Department of Interior since FY 2004. Based on the
results provided in the FY 2010 SAS 70 Report on Oracle Federal Financial System, I am able to provide a
reasonable assurance that the USADF’s Financial Management Systems conforms to government-wide
requirements mandated by the FFMIA and OMB Circular No. A-127, Financial Management Systems,
section 7.

Signed:
/s/
Lloyd O. Pierson, President



                                                              10
OMB Circular A-123 Compliance Improvements

In 2010, management strengthened its internal control environment by formalizing annual
internal control assessment process. This enhanced approach was established as an institutional
practice to increase confidence the level and quality of Management’s Annual Statements of
Assurance on internal controls. The adoption of a continuous improvement internal control
process will include:

(1) A regular review of the organizational culture and structure: areas of authority and
    responsibility and delegations, reporting hierarchies, human capital policies, expectations of
    integrity and ethical patterns of behavior.
(2) A risk assessment of internal and external factors and previous findings.
(3) Assessment of policies, procedures, mechanisms, segregations of duties, physical controls on
    assets, authorizations processes, documentation and access to documentation, including those
    related to information systems, and mechanisms of communication of information internally
    and externally.
(4) Monitoring the effectiveness of these processes as a normal course of business, including:
    identification and reporting of deficiencies and consideration and, where appropriate,
    planning and implementing corrective action.
A directive issued by the President on November 3, 2009 formally outlined the steps and
timeframes associated with the formal implementation of USADF’s enhanced internal control
assurance process. As a result, an Internal Control Assessment Committee (ICAC) was
established and has completed a risk assessment matrix on USADF major business processes.
Based on that assessment the ICAC conducted a business evaluation and has a draft report and
recommendations pending with the President.

Internal Audit Function

Prior to the IG audit activities, USADF management moved to establish and strengthen an
independent internal audit capability that reports directly to the USADF President and the Board of
Directors. The internal audit function will focus its efforts on assessing compliance with USADF
financial policy and practices at the Country Coordinator Offices, USADF Partner Organizations,
and the USADF project grantees. Each assessment will be followed by an Internal Audit Report and
follow-up project plan.

In 2010 the USADF Internal Audit unit made significant progress in implementing a systematic plan
and approach to review the financial management and accounting for USADF funds provided to
project grants, partner grants, and country coordinator offices.

                    Financial Audits in 2010    Scheduled        Completed
                    Projects Grants                  26              26
                    Partner Grants                   21              14
                    Coordinator Offices               1              1




                                                11
Integrated Contracting Practices
USADF has partially implemented an automated Acquisition Management System in FY 2010 to
improve the procurement and contracting process through online records management,
improvements to process controls and reporting, greater standardization of policy, and increased
assurances of compliance with the Federal Acquisition regulation.

Grant Monitoring

Closely tracking the progress of grant implementation plans and budgets is an important aspect
that can help increase the likelihood that a grant will result in a successful outcome. Monitoring
can identify early problems and ensure that additional support is applied. In 2009 and 2010
USADF updated the monitoring roles of the Country Coordinator and Regional Director to better
ensure Partners were providing the technical support to Grantees consistent with the terms of
their cooperative agreement. Monitoring includes regular reviews of Grantees’ quarterly reports,
and periodic sites visits (at least annually) to Grantees by Partner Organizations, and by USADF
staff. Each project grant with a value greater than $100,000 receives an independent financial
audit on the use of USADF grant funds. At the end of a grant period, a Grant Close-Out
procedure is completed for each grant. The close out process includes a final accounting of grant
funds, an assessment of the grant’s outcomes, and a determination about the sustainability of the
project.

Additionally, Regional Directors conduct bi-annual portfolio performance reviews with their
country teams to monitor and assess project performance within their respective regions. USADF
management also conducts bi-annual program reviews with Regional Directors to ensure there is
a clear line of accountability for the overall effectiveness of grant programs. Based on the
review, grants are given a performance grade using a common grading and assessment process.
Grants with lower grades (C – F) are given special attention from Partner Organizations to help
remediate the project difficulties. As a last resort grants with failing grades may be terminated.
The most recent assessment was conducted on October 26 and 28, 2010.

Grant Evaluation

In late FY 2009, the new monitoring and evaluation unit at USADF commissioned POSDEV, an
independent, African NGO based in Ghana to conduct an extensive program and grant evaluation
across 15 countries in Africa.

The Program evaluation has the following three components:

   1) Standardized survey of all USADF-funded clients with active projects underway for at least
      two years and projects that expired within the past 3 years.
   2) In-depth evaluation of a random sample of 40 percent of the projects included in the client
      survey. The in-depth evaluations will be based on field visits and open-ended interviews
      with clients, partner organizations, country program coordinators, USADF staff, and other
      stakeholders; and,
   3) Standardized sample surveys of workers and farmers or other primary raw material suppliers
      for the projects included in the in-depth evaluations.


                                               12
   Some Key Findings of the Client Surveys:

           Item                                                             Median Score
           Project idea originated from the Grantee                           96%
           Country representative office rated professional or better         96%
           Other technical assistance and training in implementation very
           useful or better                                                   94%
           USADF-required training on financial management and reporting
           very useful or better                                              93%
           Project development and review process good or better              90%


   Most Frequently Mentioned Grantee Recommendations:

   Project Design and Review

      The quality of USADF support for technology selection and procurement needs to be
       improved.
      Partner Organization staff and consultants should work more closely with the clients in a
       more genuinely participatory manner.
      The quality of market assessment and marketing support needs to be improved.

       Project Implementation

      Reduce disbursement delays and roadblocks.
      Training and technical assistance need to be more closely tailored to the actual needs of
       the clients instead of providing the same standardized training to all Grantees when that
       may be unnecessary or inappropriate.
      Partner Organizations should visit Grantees more frequently for monitoring,
       troubleshooting, and support.

In 2009 and 2010 USADF took active steps to ensure evaluation findings are incorporated into
improved field operations practices, procedures and support documents.


Improper Payments Information Act of 2002 Reporting Detail

Generally, an improper payment is any payment that should not have been made or that was
made in an incorrect amount under statutory, contractual, and administrative or other legally
applicable requirement. OMB Circular A-123, Appendix C, defines significant improper
payments as annual improper payments in a program that exceed both 2.5 percent of program
annual payments and $10 million. The Improper Payments Information Act (IPIA) of 2002
(Public Law No. 107-300), requires agencies to annually review their programs and activities to
identify those susceptible to significant improper payments. During FY 2010, USADF reports
no improper payments.




                                                   13
Limitations of Financial Statements
USADF's principal financial statements have been prepared to report the financial position and
results of operations, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements
have been prepared from books and records in accordance with generally accepted accounting
principles (GAAP) for federal entities and the formats prescribed by the Office of Management and
Budget, the statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                 14
 ANNUAL PERFORMANCE INFORMATION

 Program Achievements

 It should be noted that USADF achieved several significant steps forward in 2010 programs.
 Working from a base budget of $30.0 million, USADF was able to provide over $18.8 million of
 quality grants and technical resources to improve lives and income levels to many of the most
 marginalized and underserved communities in Africa. At the same time, process times for
 critical grant activities have been reduced by more than 50%. Quality control and monitoring and
 evaluation are a critical priority for all program outputs and activities.

 In 2010, USADF used over $3.1 million of African strategic partner matching funds to stretch
 U.S. tax dollars further in reaching under-served communities.

 Management has established seven operational priorities for FY 2009 and 2010 to ensure that
 USADF is effectively meeting its obligations to the United States taxpayer and making a positive
 impact in Africa. The majority of these focus on USADF programming activities and achieving
 greater cost effectiveness in operations in order to increase the amount of appropriated dollars
 going directly to poor communities in Africa.
  2009 - 2010 Operational Priorities
  1. Model high effectiveness and low overhead operations.
  2. Focus program activities on marginalized communities in Africa.
  3. Invest in Africans and their ideas through participatory development.
  4. Ensure projects produce long term social and economic results.
  5. Promote African led and managed field project support.
  6. Achieve the highest levels of openness and transparency in the U.S. government
  7. Support and develop an equal opportunity, results-driven staff team that rewards hard work,
     dedication to the mission, and personal success.

 Three simple performance measures help ensure USADF is maximizing the use of funds for
 development grants in Africa, is efficiently moving funds to Africa with minimum delays and is
 consistently moving toward lower overhead levels. The table below shows USADF
 achievements for 2005 through 2009. In 2009 USADF increased the number of grants provided
 to marginalized groups in Africa, significantly improved its disbursement processing cycle times,
 and better balanced strategic partner collections with current year funds utilization.

 Comparative Performance Table:
                         FY 2006           FY 2007            FY 2008            FY 2009                           FY 2010
Measure                Achievement      Achievement        Achievement         Achievement      FY2010 Target    Achievement
Development Grant
                        $13.5 million       $15 million       $18 million         $25 million      $26 million     $22 million
Funding Levels1
Grant 1st
Disbursement             Not Tracked          214 days          146 days             78 days          45 days         67 days
Timing
Operating Expense
                                 38%               46%                36%               35%            <35%              34%
Ratio2
 1
   Cooperative Agreement Grants and Project Grants including use of Strategic Partner Funds
 2
   Operating Expenses / Current Year Appropriations




                                                               15
Development and Partner Cooperative Agreement grant funding levels decreased slightly from
$25 million in 2009 to $22 million in 2010. The target of $26 million in grant funding was
missed primarily due to two factors. In FY 2010, expected programming of $1 million in Niger
was halted due to political pressures. An additional $3.1 million in food security programs were
expected to begin in the Turkana region in Kenya and other conflict areas but was delayed due to
lack of final country programming agreements. The management and Board agreed to carry
forward these food security funds into 2010.

USADF continues to make progress in improving disbursement times. Disbursement timing
represents the number of days between the date a legal grant agreement was established and the
date funds were released for use by the grantee. In FY 2010, USADF made a 15% improvement
in this cycle time, reducing the time from 78 days to 67 days.

Operating Expense levels continue to be a challenge. USADF budget priorities are to maximize
the amount of appropriated funds for quality programs to marginalized communities in Africa
while maintaining sufficient levels of oversight and internal controls. For FY 2011 Management
plans to maintain current FY 2010 cost levels while continuing to increase program funding.
While this will lock the Operating Expense Ratio at 33%, USADF productivity measures will
continue to improve (see Productivity Improvements section page 6 of this report).

Program Monitoring and Evaluations

Each project grant funded by USADF includes specific set of goals and objectives, and a line
item budget as a part of the standard grant agreement. For active grants, these documents may
be viewed online at the USADF website. Progress toward achievement of these goals and an
accounting of the use of grant funds is monitored on a quarterly basis through a grantee report.
The grantee quarterly reports are reviewed by Partner Organizations, Country Coordinators, and
USADF Washington staff to closely track and assess the grantee’s progress and performance.
The grant agreements and quarterly reports are on file with USADF and may be provided upon
request. Partner Organizations, USADF Country Coordinators, and USADF Washington staff
(including the President and Board of Directors) also conduct regular monitoring site visits to
each USADF grantee, and summarize their findings in site visit reports. Timeframes for
USADF grants range from two to five years in duration. At the end of a grant period, the Partner
Organizations and USADF staffs complete a grant close-out process that includes a full
accounting for the use of grant funds, and an assessment of the project’s outcomes and its
sustainability.

Each partner organization funded by a cooperative grant agreement provides USADF with a
monthly report that includes both project and financial management information used by USADF
to assess the performance of the grantee. These reports are on file with USADF and may be
provided upon request. A new partner performance and assessment model was developed in FY
2009 for implementation in FY 2010.

As discussed previously (see MD&A section on Grant Evaluation), USADF commissioned an
external program evaluation on September 23, 2008 with the Pan-African Organization for
Sustainable Development (POSDEV). POSDEV is a non-governmental organization that was


                                              16
created in 1997 to build an alliance of indigenous African NGOs committed to the empowerment
of local grassroots movements for self-reliant, sustainable development. Draft reports are
currently under review.

Other Program Performance Indicators

A detailed set of USADF performance indicators is displayed in the table below. Performance
indicators in FY 2008 mostly showed significant improvements in the effectiveness of USADF
funds to help grow Small and Medium Sized Enterprises in Africa. Cumulative revenue growth
nearly doubled from $63 million to $112 million. The “investment multiplier” increased from 3.8
in FY 2007 to 6.3 in FY 2008. This indicator tracks how much sales revenues increased for each
USADF dollar provided to that enterprise. Both the export growth measure and the number of
beneficiaries rose sharply in 2008. Although considerable time and effort is needed to develop
local growth engines, USADF grantees prove they can productively use USADF funds to
increase revenues and expand operations..
Key Performance Indicators FY 2008
(FY 2009 Indicators are still being finalized at the time of this report. We expect the final report to be
completed by the end of January, 2011)
                   Indicator                     FY 06 Actual         FY07 Actual           FY08 Actual
  Cumulative Revenue Growth, active and
                                                   $43,288               $63,044              $112,355
  recently expired (USD thousands)
  Investment Multiplier, active and
                                                      2.0                  3.8                   6.3
  recently expired
  Cumulative Export Revenue Growth, active
                                                      ND                 $4,970               $18,038
  and recently expired (USD thousands)
  Net Income Before Income Taxes and
                                                    $3,106               $11,952              $17,364
  Depreciation, active (USD thousands)
  Profitability, active                             44.0%                71.0%                 68.7%
  Owners, Full-Time Workers, and Principal
                                                    46,553               44,464               106,814
  Raw Material Suppliers or Farms, active
  Salaries, wages, and bonuses paid by
                                                      ND                   ND                  $5,640
  grantees, active (USD 000)
  Sustainability, expired                            62%                  84%                   79%




                                                     17
October 29, 2010


               UNITED STATES AFRICAN DEVELOPMENT FOUNDATION
                           MESSAGE FROM THE CFO

I am pleased to present the fiscal year 2010 comparative Financial Statements for the United
States African Development Foundation (USADF). The financial statements and performance
results data are complete and reliable and are in accordance with OMB requirements. They are
also in conformity with generally accepted accounting principles.

The USADF’s administrative and fiscal accounting systems for the year ended September 30,
2010 fully comply with the requirements of the Federal Financial Management Improvement Act
(FFMIA).

USADF is in substantial compliance with the requirements of the Federal Managers’ Financial
Integrity Act of 1982 (FMFIA) except for a material weakness on information security. Except
for this material weakness, the USADF has appropriate management controls in place to ensure
that internal controls are operating in accordance with applicable policies and procedures and are
effective in meeting the requirements imposed by the FMFIA and FFMIA. No other material
weaknesses were found in the design or operation of controls.

This material weakness is the result of a significant deficiency in USADF’s compliance with the
Federal Information Security Management Act (FISMA), which is being reported by the USAID
Office of the Inspector General (OIG) in an independent assessment of the security infrastructure
supporting the USADF enterprise network system. The FY 2010 FISMA report is to be finalized
by November 15, 2010.

USADF has taken steps to address the FISMA deficiency and plans to complete the
implementation before the end of January, 2011.

Signed:


/s/
William E. Schuerch
Chief Financial Officer




                                               18
          SECTION II

INDEPENDENT AUDITOR’S REPORTS
THIS PAGE INTENTIONALLY LEFT BLANK
gka, P.C.                                                     Certified Public Accountants | Management Consultants

                                    Independent Auditor's Report on Financial Statements
1015 18th Street, NW
      Suite 200
  Washington, DC          Inspector General, U.S. Agency for International Development, and
        20036             Board of Directors and the President,
                          United States African Development Foundation:
  Phone: 202-857-1777
   Fax: 202-857-1778
Website: www.gkacpa.com
                          We have audited the accompanying balance sheet of the United States African
                          Development Foundation (USADF) as of September 30, 2010, and the related
                          statements of net cost, changes in net position, and budgetary resources
                          (hereinafter referred to as “financial statements”) for the year then ended.
                          These financial statements are the responsibility of USADF’s management.
                          Our responsibility is to express an opinion on these financial statements based
                          on our audit. The financial statements as of September 30, 2009 were audited
                          by other auditors whose report dated November 3, 2009, expressed an
                          unqualified opinion on those statements.

                          We conducted our audit in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and applicable provisions of Office of
                          Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
                          Financial Statements, as amended. Those standards require that we plan and
                          perform the audit to obtain reasonable assurance about whether the financial
                          statements are free of material misstatement. An audit includes examining, on
                          a test basis, evidence supporting the amounts and disclosures in the financial
                          statements. An audit also includes assessing the accounting principles used
                          and significant estimates made by management, as well as evaluating the
                          overall financial statement presentation. We believe that our audit provides a
                          reasonable basis for our opinion.

                          In our opinion, the financial statements referred to above present fairly, in all
                          material respects, the financial position of USADF as of September 30, 2010,
                          and its net costs, changes in net position, and budgetary resources for the year
                          then ended in conformity with accounting principles generally accepted in the
                          United States of America.

                          The information in the Management Discussion and Analysis is not a required
                          part of the financial statements, but is supplementary information required by
                          accounting principles generally accepted in the United States of America and
                          OMB Circular A-136, Financial Reporting Requirements. We have applied
                          certain limited procedures, which consisted principally of inquiries of



                                                               Member of the American Institute of Certified Public Accountants
management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
October 29, 2010, on our consideration of USADF’s internal control over financial reporting,
and on our tests of its compliance with certain provisions of applicable laws, regulations, and
contracts. These reports are an integral part of an audit performed in accordance with
Government Auditing Standards, and should be read in conjunction with this report in
considering the results of our audit.




October 29, 2010




                                              20
                                                              Certified Public Accountants | Management Consultants

gka, P.C.                     Independent Auditor's Report on Internal Control over Financial
                                                       Reporting

1015 18th Street, NW      Inspector General, U.S. Agency for International Development, and
      Suite 200           Board of Directors and the President,
  Washington, DC          United States African Development Foundation:
        20036
                          We have audited the balance sheet and the related statements of net cost,
  Phone: 202-857-1777     changes in net position, and budgetary resources, hereinafter referred to as
   Fax: 202-857-1778
Website: www.gkacpa.com   “financial statements” of the United States African Development Foundation
                          (USADF) as of and for the year ended September 30, 2010, and have issued
                          our report thereon dated October 29, 2010. We conducted our audit in
                          accordance with auditing standards generally accepted in the United States of
                          America; the standards applicable to financial audits contained in Government
                          Auditing Standards, issued by the Comptroller General of the United States;
                          and applicable provisions of Office of Management and Budget Bulletin No.
                          07-04, Audit Requirements for Federal Financial Statements, as amended.

                          In planning and performing our audit, we considered USADF’s internal control
                          over financial reporting by obtaining an understanding of the design
                          effectiveness of USADF’s internal control, determined whether these internal
                          controls had been placed in operation, assessed control risk, and performed
                          tests of controls as a basis for designing our auditing procedures for the
                          purpose of expressing our opinion on the financial statements. We limited our
                          internal control testing to those controls necessary to achieve the objectives
                          described in OMB Bulletin No. 07-04 and Government Auditing Standards.
                          We did not test all internal controls relevant to operating objectives as broadly
                          defined by the Federal Managers’ Financial Integrity Act of 1982, such as
                          those controls relevant to ensuring efficient operations. The objective of our
                          audit was not to provide an opinion on the effectiveness of USADF’s internal
                          control over financial reporting. Consequently, we do not provide an opinion
                          on the effectiveness of USADF’s internal control over financial reporting.

                          Our consideration of the internal control over financial reporting was for the
                          limited purpose described in the preceding paragraph and was not designed to
                          identify all deficiencies in internal control over financial reporting that might
                          be deficiencies, significant deficiencies, or material weaknesses. A deficiency
                          in internal control exists when the design or operation of a control does not
                          allow management or employees, in the normal course of performing their
                          assigned functions, to prevent or detect and correct misstatements on a timely
                          basis. A significant deficiency is a deficiency or combination of deficiencies,
                          in internal control that is less severe than a material weakness, yet important
                          enough to merit attention by those charged with governance. A material
                          weakness is a deficiency, or a combination of deficiencies, in internal control,
                          such that there is a reasonable possibility that a material misstatement of the



                                                               Member of the American Institute of Certified Public Accountants
entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

We noted certain matters involving internal control and its operation that we reported to
management of USADF in a separate letter dated October 29, 2010.

This report is intended solely for the information and use of the Management of USADF, the
Office of Inspector General of the U.S. Agency for International Development, the
Government Accountability Office, OMB, and the U.S. Congress, and is not intended to be,
and should not be used by anyone other than these specified parties. However, this report is a
matter of public record and its distribution is not limited.




October 29, 2010




                                               22
gka, P.C.
                                                             Certified Public Accountants | Management Consultants

                                      Independent Auditor's Report on Compliance with
                                                   Laws and Regulations
1015 18th Street, NW
      Suite 200           Inspector General, U.S. Agency for International Development, and
  Washington, DC          Board of Directors and the President,
        20036             United States African Development Foundation:

  Phone: 202-857-1777     We have audited the balance sheet and the related statements of net cost,
   Fax: 202-857-1778
Website: www.gkacpa.com   changes in net position, and budgetary resources, hereinafter referred to as
                          “financial statements” of the United States African Development Foundation
                          (USADF) as of and for the year ended September 30, 2010, and have issued
                          our report thereon dated October 29, 2010. We conducted our audit in
                          accordance with auditing standards generally accepted in the United States of
                          America; the standards applicable to financial audits contained in Government
                          Auditing Standards, issued by the Comptroller General of the United States;
                          and, the applicable provisions of Office of Management and Budget (OMB)
                          Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
                          amended.

                          The management of USADF is responsible for complying with laws and
                          regulations applicable to USADF. As part of obtaining reasonable assurance
                          about whether USADF’s financial statements are free of material
                          misstatement, we performed tests of its compliance with certain provisions of
                          laws and regulations and contracts, noncompliance with which could have a
                          direct and material effect on the determination of financial statement amounts,
                          and certain provisions of other laws and regulations specified in OMB Bulletin
                          No. 07-04, including certain requirements referred to in Section 803(a) of the
                          Federal Financial Management Improvement Act (FFMIA) of 1996. We
                          limited our tests of compliance to the provisions described in the preceding
                          sentence, and we did not test compliance with all laws, regulations and
                          contracts applicable to USADF. However, our objective was not to provide an
                          opinion on overall compliance with laws, regulations and contracts.
                          Accordingly, we do not express such an opinion.

                          The results of our tests of compliance with laws, regulations and contracts
                          described in the preceding paragraph, exclusive of FFMIA, disclosed no
                          instances of noncompliance that are required to be reported under Government
                          Auditing Standards or OMB Bulletin No. 07-04.

                          Under FFMIA, we are required to report whether USADF’s financial
                          management systems substantially comply with (1) federal financial
                          management systems requirements (FFMSR), (2) applicable federal
                          accounting standards, and (3) the United States Government Standard General
                          Ledger at the transaction level in accordance with FFMIA Section 803(a)
                          requirements.


                                                              Member of the American Institute of Certified Public Accountants
The results of our tests disclosed no instances in which USADF’s financial management
systems did not substantially comply with the three requirements discussed in the preceding
paragraph.

This report is intended solely for the information and use of the Management of USADF, the
Office of Inspector General of the U.S. Agency for International Development, the
Government Accountability Office, OMB, and the U.S. Congress, and is not intended to be,
and should not be used by anyone other than these specified parties. However, this report is a
matter of public record and its distribution is not limited.




October 29, 2010




                                                     24
          SECTION III

FINANCIAL STATEMENTS AND NOTES
THIS PAGE INTENTIONALLY LEFT BLANK
                              United States African Development Foundation
                                           BALANCE SHEETS
                                   As of September 30, 2010 and 2009

                                                                         FY 2010           FY 2009
ASSETS

    Intragovernmental:
         Fund balance with Treasury (Note 3)                        $ 34,210,689       $ 35,844,724
    Total intragovernmental                                           34,210,689         35,844,724

    Cash and other monetary assets (Note 4)                              9,257,024         9,045,747
    Accounts receivable, net (Note 5)                                            -                 -
    Advances and prepayments (Note 6)                                    2,053,348         2,431,168
    General property, plant and equipment – Net (Note 7)                   394,569           608,180


TOTAL ASSETS                                                        $45,915,630        $47,929,819


LIABILITIES

    Intragovernmental:
         Accounts payable                                            $             -   $             -
    Total intragovernmental                                                        -                 -

    Accounts payable (Note 8)                                        $     70,220           388,765
    Other (Note 8 and 9)                                                  459,554           489,728

TOTAL LIABILITIES                                                    $    529,774      $    878,493

NET POSITION
   Unexpended Appropriations                                         35,666,873         37,350,742
   Cumulative Results of Operations                                   9,718,983          9,700,584
   TOTAL NET POSITION                                                45,385,856         47,051,326

TOTAL LIABILITIES AND NET POSITION                                  $45,915,630        $47,929,819




                  The accompanying notes are an integral part of these statements.

                                                      25
                            United States African Development Foundation
                                    STATEMENTS OF NET COST
                           For the Years Ended September 30, 2010 and 2009


                                                                       FY 2010           FY 2009
PROGRAM COSTS

    Gross Costs                                                     $ 24,569,237      $ 19,102,782

    Less: earned revenue                                                         -                 -

    Net program costs                                                 24,569,237        19,102,782


Cost not assigned to program                                           9,611,359        10,718,779


NET COST OF OPERATIONS (Note 11)                                    $ 34,180,596      $ 29,821,561




                   The accompanying notes are an integral part of these statements.

                                                 26
                           United States African Development Foundation
                         STATEMENTS OF CHANGES IN NET POSITION
                          For the Years Ended September 30, 2010 and 2009



                                                                        FY 2010          FY2009

Cumulative Results of Operations:

    Beginning Balances                                                $ 9,700,584      $ 9,202,090

Budgetary Financing Sources:
   Appropriations used                                                 29,214,034       26,259,795

Other Financing Sources (Non-Exchange):
   Donations and forfeitures of property                                4,657,568        3,809,553
   Transfers in/out reimbursement                                               -           (2,047)
   Imputed financing (Note 12)                                            327,393          252,754

 Total Financing Sources                                               34,198,995       30,320,055
 Net Cost of Operations (Note 11)                                      34,180,596       29,821,561

 Net Change                                                               18,399          498,494

    Cumulative Results of Operations:                                   9,718,983        9,700,584


Unexpended Appropriations:

 Beginning Balances                                                    37,350,742       32,344,209

Budgetary Financing Sources:
   Appropriations received                                             30,000,000       32,500,000
   Other adjustments                                                   (2,469,835)      (1,233,672)
   Appropriation used                                                 (29,214,034)     (26,259,795)
     Total Budgetary Financing Sources                                 (1,683,869)       5,006,533

     Total Unexpended Appropriations                                   35,666,873       37,350,742

     Net Position                                                     $45,385,856      $47,051,326




                    The accompanying notes are an integral part of these statements.

                                                  27
                           United States African Development Foundation
                          STATEMENTS OF BUDGETARY RESOURCES
                          For the Years Ended September 30, 2010 and 2009
                                                                       FY 2010          FY2009

BUDGETARY RESOURCES

   Unobligated Balance, brought forward, October 1:                  $10,865,481      $10,003,364

   Recoveries of Prior year unpaid obligations                         4,269,971       6,208,971

   Budget Authority
     Appropriation                                                    34,191,859      35,689,843

   Permanently not available                                          (2,469,835)      (1,233,671)

TOTAL BUDGETARY RESOURCES                                            $46,857,476      $50,668,507

STATUS OF BUDGETARY RESOURCES

   Obligations Incurred – Direct                                     $35,368,160      $39,803,026

   Unobligated balances (Note 3)
     Apportioned                                                       6,739,599        5,363,781
     Exempt from apportionment                                         3,450,613        2,363,731

   Unobligated balances – unavailable (Note 3)                         1,299,104        3,137,969

TOTAL STATUS OF BUDGETARY RESOURCES                                  $46,857,476      $50,668,507

CHANGE IN OBLIGATED BALANCE

   Obligated Balance, Net – as of October 1
     Unpaid Obligations, brought forward                             $34,024,990      $29,752,058

   Obligations Incurred                                               35,368,160      39,803,026

   Gross Outlays                                                     (33,144,782)     (29,321,123)

   Recoveries of prior year unpaid obligations, actual                (4,269,971)      (6,208,971)

   Obligated Balance, Net - End of Period
     Unpaid Obligations                                              $31,978,397      $34,024,990

NET OUTLAYS
     Net outlays                                                     $33,144,782      $29,321,123




                   The accompanying notes are an integral part of these statements.

                                                         28
                       United States African Development Foundation
                             Notes to the Financial Statements
                                  As of September 30, 2010

Note 1. Organization

   The United States African Development Foundation (“USADF” or “the Foundation”) is a
   government-owned corporation established by Congress under the African Development
   Foundation Act in 1980 and began operations in 1984. The Foundation has a unique mission
   among U.S. foreign assistance programs, by-passing layers of inefficiencies and working
   directly with the neediest communities in Africa. The Foundation uses a participatory
   approach to actively engage marginalized local community groups or enterprises in the design
   and implementation of development projects. This approach ensures these programs are
   distinctively African initiated and led, resulting in outcomes that best address the real needs
   of the community. Together, the focus on underserved populations and participatory
   development ensure greater equity and ownership in the development process. Project success
   and long term impact is further enhanced through USADF efforts to establish a network of
   partner organizations, local non-governmental organizations, that provide project design,
   implementation and management support to USADF grant recipients.


Note 2. Significant Accounting Policies
   A. Basis of Presentation

   The accompanying financial statements have been prepared on the accrual basis to report the
   financial position and results of operation in accordance with the concepts and standards
   contained in the Statements of Federal Financial Accounting Standards, as required by the
   Chief Financial Officers Act of 1990. These statements have been prepared from the books
   and records of the Foundation in accordance with the form and content for federal financial
   statements specified in the Office of Management and Budget (OMB) in OMB Circular No A-
   136, Financial Reporting Requirements, as amended, and the Foundation’s accounting
   policies, which are summarized in this note.

   B. Basis of Accounting

   Transactions are recorded to reflect both the accrual and budgetary bases of accounting.
   Under the accrual method, revenues are recognized when earned, and expenses are
   recognized when a liability is incurred, without regard to cash receipt or payment. The
   budgetary method recognizes the obligation of funds according to legal requirements, which
   in many cases is made before the occurrence of an accrual-based transaction. Budgetary
   accounting is essential for compliance with legal constraints and controls over the use of
   federal funds. Grants are recorded when obligated and expenses are recognized when the
   funds are expended, without regard to receipt or payment of cash.




                                               29
C. Fund Balances with Treasury and Cash

The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts
for which the Foundation is authorized to make expenditures and pay liabilities. In addition,
commercial, noninterest bearing accounts (in local currencies) are maintained with Bank
Gaborone of Botswana, Citibank Nigeria, and Banco Comercial do Atlantico in Cape Verde,
Standard Chartered Bank in Ghana, Ecobank in Mali, Citibank and Zenith Bank in Nigeria,
First National Bank of Swaziland in Swaziland, Standard Chartered Bank in Zambia,
EcoBank Guinea, EcoBank Benin, Standard Chartered Uganda, Banque Commerciale du
Rwanda and National Bank of Malawi to process grant funds for those countries.
Governments with whom USADF has entered Strategic Partnerships deposit donations into
these accounts. In general, grants are funds equally with appropriated funds and donated
funds. USADF controls all disbursements from these accounts.

D. Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are
denominated in local currencies to facilitate accounting by the recipient organizations.
Depending on the nature of the transaction, foreign currencies are translated into dollars at the
actual exchange rate received by the Foundation when the transaction is made or at the
prevailing exchange rate at the beginning of the month in which the transaction occurred.
The value of obligations incurred by the Foundation in foreign currencies varies from time to
time depending on the current exchange rate. The Foundation adjusts the value of its
obligations at the end of each quarter during the year to reflect the prevailing exchange rates.
Downward adjustments to prior year obligations based on favorable foreign currency
exchange rates will be made available for obligation if the adjustment occurs within the
Foundation’s authorized two year funding period. Upward adjustment to prior year
obligations based on unfavorable foreign currency exchange rate with the U.S. dollar will be
made from funds made available for upward adjustments, if any, or from currently available
funds.

E. Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over
a three-month period. Grantees report to the Foundation periodically on the actual utilization
of these funds. For purposes of these financial statements, the Foundation treats
disbursements to grantees as advances. The advance is reduced when the grantee reports
expenditures. The total grant advance is the total amount disbursed to the grantee less the
total expended for open (nonexpired) grants as of the reporting date. In order to ensure
timeliness in reporting grantee expenditures, the Foundation will use estimates to complete to
calculate the last quarter’s grantee expenditures based on historical expenditure trends since
1996 and disbursement activity funding that quarter’s activity. The actual expenditures
adjustments will be reported in the following quarter’s financial statements. Once a grant has
closed (expired or cancelled) any excess disbursement is reclassified as an Accounts
Receivable.



                                             30
F. Travel Advances

Advances are given to USADF employees for official travel. Travel advances are recorded as
expenses upon receipt of employee travel vouchers.

G. Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year
lease. Equipment is depreciated using the straight–line method over useful lives, which is
estimated at five years. Equipment with an acquisition cost of less than $5,000 or less than
two years of life is expensed when purchased.

H. Accounts Payable

Accounts payable represent amounts owed to nonfederal entities, primarily commercial
vendors, for goods and services received by USADF.

I. Contingencies

The Foundation is a party in various administrative legal actions and claims brought by or
against it. According to the Foundation’s legal counsel, the likelihood of unfavorable
outcomes for all these legal actions and claims is remote. In the opinion of the Foundation’s
management, the ultimate resolution of these proceedings, actions, and claims will not
materially affect the financial position or results of operations of the Foundation.

J. Annual, Sick, and Other Leave

Annual, sick, and other leave is accrued as it is earned and the accrual is reduced as leave is
taken. Each year, the Foundation calculates the value of the accrued annual leave at the end
of the year based on current pay rates. Funding for payment of accrued annual leave at the
end of the year will be taken from future financing sources. Sick leave and other types of
nonvested leave are expensed as taken.

K. Retirement Plan

The Foundation’s employees participate in the Civil Service Retirement System (CSRS) or
the Federal Employees Retirement System (FERS). The Foundation makes statutory
contributions to the Office of Personnel Management for employees enrolled in each plan.
The Foundation does not report accumulated assets, plan benefits or unfunded liabilities, if
any, attributable to its employees. The Office of Personnel Management reports such
amounts.

L. Trust Fund

The Foundation maintains a Trust Fund with the U.S. Treasury in accordance with its gift
authority.


                                            31
M. Use of Estimates

Management has made certain estimates when reporting assets, liabilities, revenue, and
expenses, and in the note disclosures. The preparation of financial statements in conformity
with generally accepted accounting principles requires management to make assumptions that
affect the reported amounts of assets and liabilities and disclosure of contingent assets and
liabilities at the date of the financial statements and the reported amounts of revenues and
expenses during the reporting period. Actual results could differ from those estimates.

N. Imputed Costs/Financing Sources

Federal Government entities often receive goods and services from other Federal Government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
Government entities also incur costs that are paid in total or in part by other entities. An
imputed financing source is recognized by the receiving entity for costs that are paid by other
entities. The USADF recognized imputed costs and financing sources in fiscal years 2010 and
2009 to the extent directed by OMB.

O. Non-Entity Assets and Liabilities

The USADF did not hold any Non-Entity assets or liabilities as of September 30, 2010 and
2009.

P. Expired Accounts and Cancelled Authority

Unless otherwise specified by law, annual authority expires for incurring new obligations at
the beginning of the subsequent fiscal year. The account in which the annual authority is
placed is called the expired account. For five fiscal years, the expired account is available for
expenditure to liquidate valid obligations incurred during the unexpired period. Adjustments
are allowed to increase or decrease valid obligations incurred during the unexpired period but
not previously reported.      At the end of the fifth expired year, the expired account is
cancelled.




                                             32
Note 3. Fund Balances with Treasury
   A. Fund Balances:
                                                                    FY 2010           FY 2009
                General Funds                                   $ 34,174,535      $   35,808,570
                Trust Fund                                            36,154              36,154
                Total                                          $ 34,210,689       $   35,844,724

   B. Status of Fund Balance with Treasury:
                                                                    FY 2010           FY 2009

                Unobligated Balance
                      Available                                 $  6,739,599           5,363,781
                      Unavailable                                  1,299,104           3,137,969
                      Exempt from apportionment                       36,154              36,154
                Obligated balance not yet disbursed               26,135,832          27,306,820
                Total                                           $ 34,210,689      $   35,844,724

Note 4. Cash and Other Monetary Assets

USADF’s funds held outside the Treasury consist of local currency donations made by African
governments and certain private sector entities for program purposes in each respective country.
September comparative balances are summarized below
                                                                    FY 2010           FY 2009
                Stanbic Bank of Uganda                         $     1,504,059    $    1,449,909
                EcoBank Mali                                         1,436,735         1,791,968
                Banque Commerciale du Rwanda                         1,392,865           546,191
                EcoBank Benin                                        1,179,687         1,098,828
                Bank Gaborone of Botswana                              989,995         1,020,386
                EcoBank Senegal                                        841,039           200,479
                Cape Verde                                             478,177           707,001
                Zenith Bank Nigeria – Kaduna                           410,794           291,810
                Zenith Bank Nigeria – Kano                             298,125           404,908
                EcoBank Guinea                                         287,432           367,572
                Standard Chartered Ghana                               150,116           342,508
                National Bank of Malawi                                134,766           673,333
                First National Bank Swaziland                           89,178            84,384
                Citibank Nigeria                                        33,473            33,473
                Standard Chartered Zambia                               30,583            32,997

                Total Funds Held Outside Treasury              $     9,257,024    $    9,045,747

Note 5. Accounts Receivables, Net

USADF’s accounts receivables, net as of September 30, 2010 and 2009 are summarized below:

                                                                    FY 2010           FY 2009

                        Accounts receivables                   $      877,785     $      937,509
                        Allowances for Loss on Accounts              (877,785)          (937,509)

                        Total                                  $              -   $             -



                                                      33
Note 6. Advances

USADF’s advances as of September 30, 2010 and 2009 are summarized below:

                                                                    FY 2010             FY 2009

                        Grants                                  $     2,053,348    $    2,431,168
                        Travel                                                -                 -

                        Total                                   $     2,053,348    $    2,431,168

Note 7. Property, Plant and Equipment, Net

Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and service
life is two years or more. Equipment with an acquisition cost of less than $5,000 or less than two
years of life is expensed when purchased.
USADF’s property, plant, and equipment as of September 30, 2010 and 2009 are summarized
below:

                                                                    FY 2010            FY 2009

               Equipment, at cost                               $     1,402,635    $    1,483,225
               Accumulated Depreciation                              (1,008,066)         (875,045)
               Equipment, net                                   $       394,569    $      608,180

Note 8. Liabilities

The accrued liabilities for the USADF are comprised of accounts payables, payroll accruals, and
unfunded annual leave earned by employees. Accounts Payable accruals represent expenses that
were incurred prior to year-end but were not paid. Similarly, payroll accruals represent payroll
expenses that were incurred prior to year-end but were not paid.

                                                                     (Current)         (Current)
                                                                     FY 2010           FY 2009
               Accounts Payables                                $        70,220           388,765

               Other Liabilities
                       Employees’ accrued salary                $      167,277     $      170,766
                       Liabilities not covered by budgetary
                           resources: unfunded leave                   292,277            318,962
                       Total Other Liabilities                  $      459,554     $      489,728


               Total Liabilities                                $      529,774     $      878,493




                                                     34
Note 9. Liabilities Not Covered By Budgetary Resources

The liabilities on the USADF’s Balance Sheet as of September 30, 2010 and 2009 include
liabilities not covered by budgetary resources, which are liabilities for which congressional action
is needed before budgetary resources can be provided. Although future appropriations to fund
these liabilities are likely and anticipated, it is not certain that appropriations will be enacted to
fund these liabilities. Other liabilities not covered by budgetary resources consist of unfunded
leave. Unfunded leave balances are $292,277 and $318,962 as of September 30, 2010 and 2009,
respectively.

Note 10. Undelivered Orders at the End of the Period

Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting, states that
the amount of budgetary resources obligated for undelivered orders at the end of the period
should be disclosed. For the periods ended September 30, 2010 and 2009, undelivered orders
amounted to $33,794,249 and $35,896,627, respectively.

Note 11. Net Cost of Operations

Costs by major budget object classification as of September 30, 2010 and 2009 are as follows:

   Budget Object Classifications                                      FY 2010            FY 2009
      Personnel compensation                                      $    2,785,756     $     2,997,913
      Personnel benefits                                                 840,412           1,181,877
      Travel and transportation of persons                               520,433             753,003
      Rent, Communications, and Utilities                                986,219           1,018,984
      Printing and reproduction                                           24,984              26,368
      Other contractual Services                                       4,457,036           4,774,597
      Supplies and materials                                             761,213           1,284,014
      Equipment                                                          200,084             246,019
      Grants, subsidies, and contributions                            23,604,459          17,538,786

       Total Net Cost of Operations                               $   34,180,596     $   29,821,561


Note 12. Imputed Financing Sources

The USADF recognizes as imputed financing the amount of accrued pension and post-retirement
benefit expenses for current employees. The assets and liabilities associated with such benefits
are the responsibility of the administering agency, the OPM. For the fiscal years ended
September 30, 2010 and 2009, imputed financing was $327,393 and $252,754, respectively.




                                                 35
Note 13. Leases

The space in which the Foundation Headquarters operates is leased by the Foundation through
Ten year lease until May 31, 2018. The total amount of funding commitment is detailed in Table
1.

USADF also enters into year-to-year leases in the countries with established Country
Representative Offices.
                                  TABLE 1 – USADF Headquarters’
                                Space Lease – Total Future Payment Due


                   Year                      Dates                        Amount

                   Year 3          June 1, 2010 - May 31, 2011             $734,209
                   Year 4          June 1, 2011 - May 31, 2012             $752,584
                   Year 5          June 1, 2012 - May 31, 2013             $771,430
                   Year 6          June 1, 2013 - May 31, 2014             $806,766
                   Year 7          June 1, 2014 - May 31, 2015             $826,868
                   Year 8          June 1, 2015 - May 31, 2016             $847,599
                   Year 9          June 1, 2016 - May 31, 2017             $868,801
                  Year 10          June 1, 2017 - May 31, 2018             $890,474

                  TOTAL                                                  $ 6,498,731



Note 14. Budgetary Resource Comparisons to The budget of the United States Government

The President's Budget that will include FY10 actual budgetary execution information has not yet
been published. The President’s Budget is scheduled for publication in February 2011 and can be
found at the OMB Web site. http://www.whitehouse.gov/omb The 2011 Budget of the United
States Government, with the actual column completed for 2009 has been reconciled to the
Statement of Budgetary Resources and there were no material differences.




                                                36
Note 15. Reconciliation of Net Cost of Operations to Budget


                              African Development Foundation
               RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
                     For the Years Ended September 30, 2010 and 2009
                                                                           FY 2010        FY2009
RESOURCES USED TO FINANCE ACTIVITIES

Budgetary Resources Obligated
   Obligations Incurred                                                  $35,368,160    $39,803,026
   Less: Spending authority from offsetting collections & recoveries      (4,269,971)    (6,208,971)
Net Obligations                                                           31,098,189     33,594,055

Other Resources
   Imputed financing from costs absorbed by others                          327,393        252,754
   Other                                                                    465,709        649,363
   Net Other Resources Used to Finance Activities                           793,102        902,117

Total Resources Used to Finance Activities                                31,891,291     34,496,172

RESOURCES USED TO FINANCE ITEMS NOT PART
  OF THE NET COST OF OPERATIONS

   Change in budgetary resources obligated for goods, services,
      And benefits ordered but not yet provided (Increase)                 2,102,379     (4,782,822)
      Resources that finance the acquisition of assets                        (7,480)      (202,875)
   Total resources that do not fund net costs                              2,094,899     (4,985,697)

Total Resources Used to Finance Net Cost of Operations                    33,986,190     29,510,475

COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT
  REQUIRE OR GENERATE RESOURCES IN THE CURRENT PERIOD
  Components Requiring or Generating Resources in Future Periods:
    Increase (decrease) in Accrued Annual Leave Liability                    (26,685)        70,545
    Total components of Net Cost of Operations that will require or
      Generate resources in future periods                                   (26,685)        70,545

COMPONENTS NOT REQUIRING OR GENERATING RESOURCES
  Depreciation and amortization                                             221,091        239,616
  Others                                                                          -            925
  Total components of Net Cost of Operations that will not require or
     Generate resources                                                     221,091        240,541

   Total components of Net Cost of Operations that will not require or
      Generate resources in the current period                              194,406        311,086

NET COST OF OPERATIONS                                                   $34,180,596    $29,821,561




                                                         37
